Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 ·
Tel: (212) 619-4949 · Fax No. (212) 608-3141
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

86575

AFFIDAVIT OF SERVICE

SS:

Giovanni Feliciano being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 22nd day of March 2021 deponent served 3 copies of the within

PETITION FOR WRIT OF CERTIORARI
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
MICHAEL LACOVARA
LATHAM & WATKINS LLP

JONATHAN M. JACOBSON
WILSON SONSINI GOODRICH & ROSATI, P.C.

885 Third Avenue
New York, New York 10022
(212) 906-1200
Michael.lacovara@lw.com

1301 Avenue of the Americas, 40th Floor
New York, New York 10019
(212) 497-7758
jjacobson@wsgr.com

JUSTIN EPNER
WILSON SONSINI GOODRICH & ROSATI, P.C.

1700 K Street, NW, 5th Floor
Washington, DC 20006
(202) 791-8032
jepner@wsgr.com

Counsels for Respondent
I, Giovanni Feliciano, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on March 22, 2021 pursuant to
Supreme Court Rule 29.5(c). All parties required to be served, have
n served.

Sworn to before me on
March 22, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

cw~
Notary Public

Case Name: Go New York Tours, Inc., v. Gray
Line New York Tours, Inc., et al.,

